           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 THE SOCIAL SECURITY ADMINISTRATION’S
         ELECTRONIC SERVICES


      October 2011   A-14-11-11112




  EVALUATION
    REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      October 28, 2011                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Electronic Services (A-14-11-11112)


           OBJECTIVE
           Our objectives were to (1) determine what Social Security Administration’s (SSA)
           electronic services 1 were available to the public; (2) determine how the Agency planned
           to expand these services in the future; and (3) assess SSA’s marketing of its electronic
           services through the use of social media. 2 Since social media is one of the newest
           venues used by SSA to communicate with its customers, we focused on the Agency’s
           use of social media for this evaluation.

           BACKGROUND
           This report discusses SSA’s electronic services, specifically

               •   the current electronic services available to the public,
               •   the Agency’s plans for future electronic services,
               •   the Agency’s use of social media to market its electronic services, and
               •   how other Federal agencies are using social media.

           SSA does not have a long-term customer service delivery plan, including a strategic
           electronic services plan. The Agency uses its Agency Strategic Plan FY 2008 - 2013 to
           lay out the incremental steps it must take to reach its customer service delivery vision
           (that is, world-class customer service).


           1
            Electronic Services offer the public, businesses, and other government agencies access to SSA
           services via the Internet, telephone automation, and direct data exchange.
           2
            Social media integrates technology, social interaction, and content creation using the "wisdom of
           crowds" to collaboratively connect online information. Through social media, people or groups can
           create, organize, edit, comment on, combine, and share content.
Page 2 - The Commissioner


SSA’s November 2010 Retirement Wave Report 3 states that the Agency is facing many
daunting challenges. A surge in workloads due to the recession has driven an extra
1 million economically distressed workers and families to turn to SSA for help.
Additionally, American baby boomers are aging and filing a flood of retirement and
disability claims. Moreover, 23.4 percent of SSA’s employees is eligible to retire. SSA
has primarily administered its services to the public through face-to-face or telephone
contact. In Fiscal Year (FY) 2010, SSA received approximately 45 million visitors in its
field offices (FO) and handled almost 68 million transactions via the national
800-number.

SSA’s FY 2010 Performance and Accountability Report (PAR) discusses the Agency’s
progress in achieving its strategic goals. These strategic goals are (1) Eliminate our
Hearings Backlog and Prevent its Recurrence, (2) Improve the Speed and Quality of our
Disability Process, (3) Improve our Retiree and Other Core Services, and (4) Preserve
the Public’s Trust in our Programs. 4

Further, in support of the President's Government-wide initiative to build a high-
performance Government, the Agency identified four priority goals as part of its FY 2012
Budget Overview and Annual Performance Plan. 5 The performance goals relevant to
this review are, Increase the Number of Online Applications and Improve SSA’s
Customers’ Service Experience on the Telephone, in Field Offices, and Online. To
assist the Agency in meeting its workload demands and improve its services to the
public, SSA developed Web-based services for both retirement and disability claims. In
2000, SSA took its first step by introducing the Internet Social Security Benefit
Application.

SSA needs to continue investing in ways to serve efficiently and effectively its
expanding number of customers. In December 2010, there were 34.5 million retirees
and the Agency anticipates the number to increase by nearly 80 million over the next
20 years – approximately 10,000 claims per day.




3
    SSA, Mission Critical Occupation Fiscal Years 2010-2019, Retirement Wave Report, November 2010.
4
    SSA, FY 2010 Performance and Accountability Report, p. 11-13.
5
    SSA, FY 2012 Justification of Estimates for Appropriations Committee, p. 79.
Page 3 - The Commissioner


In April 2010, 6 SSA’s Commissioner testified before Congress and stated:

          At the hearing two years ago, I discussed our vision to overhaul our online
          retirement application. The application we had in place at that time was
          nowhere near best-demonstrated practices, and, for most of the decade, only
          about 10 percent of the public applied for retirement online. To ensure that we
          provided the baby-boomers the service they expected and to free up our field
          offices so they could handle the matters requiring face-to-face interaction, we
          set a goal of receiving 50 percent of our retirement applications online within
          five years.

To meet the Commissioner’s goals, the Agency plans to increase and improve its
online applications as a way of reducing the number of customers visiting its field
offices or calling the national 800-number. As of April 8, 2011, the Agency was
receiving 39.6 percent of retirement applications online.

To determine what electronic services SSA offers, what electronic services it will offer,
and how its marketing through social media affected electronic service usage, we
interviewed SSA employees in the Offices of Operations, Systems, Quality Performance
(OQP), and Communications. We analyzed SSA’s electronic services management
information and documented the Agency’s proposed electronic services. We also
reviewed relevant electronic services Federal laws, guidelines, policies and procedures.
Finally, we contacted other Federal agencies that have social media sites to obtain
information on their use and experience with social media. See Appendix B for
additional information regarding our scope and methodology. See Appendix C for a
glossary of electronic services.

RESULTS OF REVIEW
As of January 2011, SSA had 22 7 Internet-based electronic services available to the
public (see Appendix C). 8 Based on the American Customer Satisfaction Index (ACSI)
scores, SSA has the three highest-rated online services in all of Federal Government.
However, the Agency’s Overall Customer Satisfaction Rating reported in its FY 2010
PAR does not reflect the entire landscape of Internet transactions made by SSA’s
customers.




6
 Oversight Hearing on Social Security Administration Field Office Service Delivery: Hearing Before
                                                                           th
House Ways and Means Committee Subcommittee on Social Security, 111 Cong. 2 (2010) (Statement
of Michael Astrue, Commissioner of SSA).
7
    After our fieldwork, SSA identified the Public Fraud Reporting Form as an electronic service.
8
  Appendix C includes four electronic services that were not operating as of January 2011, but SSA plans
to begin operating these applications by the end of Calendar Year (CY) 2011. These applications are
Spanish i1020, Spanish iClaim, MySocialSecurity.com, and Online Social Security Statements.
Page 4 - The Commissioner


The Agency plans to improve its authentication process9 and release several other
services. Although the Agency has made progress, it continues to make a concerted
effort to provide even more electronic services to the public and promote the public’s
use of electronic services that are already available – especially online benefit
applications. The Agency has a tactical plan to develop and implement electronic
services in FY 2011 but no documented electronic services strategic plan beyond 2011.

To date, the marketing efforts for SSA’s electronic services have primarily been through
television and radio public service announcements, public affairs specialists, print ads,
Webpage postings and promotions, display banners, press releases, billboards, and
airport signs. SSA began using social media 10 in 2007 and expanded its efforts in
March 2010. The Agency can draw a “cause and effect” relationship between its
electronic services marketing efforts and its online service use. However, SSA cannot
demonstrate a cause and effect relationship between visitation to its social media sites
and the number of online applications it receives.

Electronic Services Available to the Public

Based on the ACSI scores, SSA had the three highest-rated online services in all of
Government—iClaim 11 (91 out of 100), the Retirement Estimator, (90 out of 100), and
Help with Medicare Prescription Drug Plan Costs (Extra Help) application (i1020)
(88 out of 100) —as of February 2011 (see Table 1). The customer satisfaction scores
for these online services exceed the top-rated commercial site, Netflix. The Agency’s
average fourth quarter 2010 satisfaction score was 79 out of 100. However, the
Agency’s Frequently Asked Questions (69 out of 100), Main Site (70 out of 100), and
Policy Pages (72 out of 100) online services received much lower ratings.

Since the Agency’s Frequently Asked Questions, Main Site, and Policy Pages have
lower ratings, it is imperative that SSA improve these sites. A commitment of resources
to improve these sites could help to attract and keep the customers using the Agency’s
electronic services. This would help reduce the workloads in the FOs and through the
800-number.

To address customer concerns, the Agency convened a Satisfaction Insight Review
group that meets monthly to review customer service feedback to determine the
necessary service improvements and implement appropriate solutions. For example,
the Agency received feedback from its customers on its socialsecurity.gov Website.
Based on this feedback, SSA redesigned the site.



9
 Authentication is the process of determining whether someone or something is, in fact, who or what they
declare to be.
10
     In 2007, the Agency launched its YouTube efforts. It launched its Facebook and Twitter efforts in 2010.
11
 iClaim includes four Internet-based electronic services: Retirement, Spouse, Disability and Medicare
Only applications.
Page 5 - The Commissioner


                                     Table 1: ACSI Scorecard Ratings

                                                                 Overall Satisfaction Scores
                   Applications Surveyed                              Sampling Dates
                                                                February 9 Through 15, 2011
     Business Service Online                                                    82
     Frequently Asked Questions                                                 69
     Disability Report                                                          82
     Main Site                                                                  70
     Help with Medicare Prescription Drug Plan
                                                                                88
     Costs (now Extra Help)
     iClaim                                                                     91
     Retirement Estimator                                                       90
     Policy Pages                                                               72

To calculate the overall customer satisfaction of individuals who do business with SSA
through its major service delivery channels, the Agency used the results of the OQP
Overall Service Satisfaction: FY 2010 Performance Indicator Report. The OQP survey
includes the following categories as the major service delivery channels: 800-Number
Callers, FO Callers, Office Visitors, and Internet Transactions.

Illustrated in Diagram 1, 12 the majority of SSA’s contact with the public was through
telephone calls to FOs (35 percent) or the 800-number (38 percent). According to
OQP’s Overall Service Satisfaction: FY 2010 Performance Indicator Report, only
                                                        1 percent of the public’s contact
                Diagram 1 - SSA FY 2010                 was online. 13
               Type of Contact by the Public
                                                                For FY 2010, SSA established an
           800-Number Callers        FO Callers                 overall average customer
           Office Visitors           Internet Transactions      satisfaction goal of 83.5 percent for
                                                                individuals who do business with
                                1%
                                                                the Agency in person, by
                                                                telephone, and online. 14 As
                             26% 38%                            illustrated in Table 2, the Agency
                             35%                                did not achieve its overall
                                                                customer satisfaction goal of
                                                                83.5 percent.


12
     SSA, OQP Overall Service Satisfaction: FY 2010 Performance Indicator Report, October 2010.
13
  For this report, the Internet contact includes actual iClaim and Help with Medicare Prescription Drug
Plan Costs (Extra Help) application (i1020) counts for FY 2009.
14
     SSA, Fiscal Year 2010 Performance and Accountability Report, p. 66.
Page 6 - The Commissioner


                   Table 2: FY 2010 Service Satisfaction Rates

                                                        Percent Excellent/Very
        Type of Contact                                 Good/Good
        800- Number Callers                             73
        FO Callers                                      75
        Office Visitors                                 90
        Internet Transactions                           91
        All Contacts                                    78

Although Table 2 indicates that Internet Transactions had a satisfaction rating of
91 percent, it does not appear that this category includes all types of Internet
Transactions. 15 As previously indicated, SSA has 22 Internet-based electronic services
available to the public online. SSA staff informed us that the Internet Transactions
category only included two of the three highest-rated online services—iClaim and Help
with Medicare Prescription Drug Plan Costs (Extra Help). As a result, the reported OQP
Overall Service Satisfaction: FY 2010 Performance Indicator Report outcome does not
reflect the entire landscape of Internet Transactions (that is, electronic services). As
shown in Diagram 2 and based on SSA’s Electronic Services Usage Statistics, the
Internet Transactions category, which includes iClaim and Help with Medicare
Prescription Drug Plan Costs (Extra Help) represents 19 percent of the electronic
services used by the public. 16 While Retirement Estimator represents 32 percent,
Check Your Social Security Benefits represents 21 percent, and the remaining
electronic services represent 28 percent, their transactions are not included in the OQP
survey. Nevertheless, in OQP’s FY 2010 Internet Report Card Survey, the Agency
states it plans to add more online applications to the Internet Transactions contact list in
the future. In FY 2011, SSA added Direct Deposit and Change of Address to the
Agency’s Internet Transactions contact list.




15
  SSA, OQP Overall Service Satisfaction: FY 2010 Performance Indicator Report, October 2010, p. 2 and
A-2.
16
  iClaim and Help with Medicare Prescription Drug Plan Costs (Extra Help) represent 19 percent. iClaim
included three Internet based electronic services: Retirement, Spouse, and Disability applications. The
19 percent represents 18 of the 22 confirmed electronic services used by the public for the 12-month
period ended March 2011.
Page 7 - The Commissioner


                         Diagram 2: Internet Transaction Analysis 12 Months
                                        Ending in March 2011

                       iClaim (Disability, Medicare Only, Retirement and Spouse Applications)

                       Help with Medicare Prescription Drug Plan Costs - 06/05

                        Check Your Social Security Benefits - 02/01

                        Retirement Estimator - 07/08

                       All others (remaining applications)

                                                         16%
                                                                     3%
                                             28%


                                                               21%

                                                32%




To assist the Agency’s efforts to provide world-class service, SSA should develop a
strategic plan for its electronic services that will contribute to SSA’s technology vision
and customer service delivery goals. Additionally, SSA should develop performance
metrics to measure customer satisfaction for key electronic service applications.
Moreover, we recommend SSA continue to evaluate its composition of customer
satisfaction ratings included in its Overall Average Customer Satisfaction goal, and
include all electronic services, if applicable, in the measurement. Finally, we
recommend the Agency continue to review customer service feedback to determine the
necessary service improvements and implement appropriate solutions. For example,
the Agency should continue hosting Satisfaction Insight Reviews. These workgroups
provide a forum to discuss issues with various electronic service applications and
brainstorm to come up with suggestions on how to improve customer satisfaction.

Future Electronic Services

SSA does not have a strategic plan for its electronic services. The Agency does have a
short-term tactical plan to develop and implement electronic services (Social Security
Statement and Spanish iClaims), but not beyond 2011. SSA stated its strategic
electronic services plan is included in the Agency’s overall planning process and
incorporated in the Strategic Information Technology Assessment and Review (SITAR)
process, 17 and its Agency Strategic Plan FY 2008 -2013. However, neither the SITAR
process nor the Agency’s Strategic Plan provides an electronic services vision beyond

17
     The SITAR process aligns SSA’s technology investments with the Agency’s strategic priorities.
Page 8 - The Commissioner

5 years. The Government Performance and Results Act (GPRA) of 1993 18 requires that
the head of each agency submit a strategic plan for program activities to the Director of
the Office of Management and Budget and Congress. GPRA helps Federal managers
improve service delivery by requiring a plan for meeting program objectives and by
providing information about program results and service quality. 19 GPRA also
designates the strategic plan cover a period of not less than 5 years from the FY
submitted and be updated and revised at least every 3 years. 20

SSA is developing the Citizen Authentication Initiative to authenticate its electronic
service users in the future. The Citizen Authentication Initiative will provide a controlled,
single sign-on access methodology. A user will only need to sign into SSA’s online
services once to access multiple applications. Currently, every user must log into each
online service separately and be authenticated, if required. The first electronic service
scheduled to incorporate the citizen authentication solution will be the Social Security
Statement. The Agency anticipates releasing the Citizen Authentication Initiative in
CY 2012.

Further, in CY 2011, SSA plans to offer Spanish iClaim, and Spanish i1020. The
Spanish iClaim allows applicants to apply for retirement; disability; spouse; and recently,
Medicare Only benefits in a Spanish language format online. The Spanish i1020 is the
Spanish version of the Help with Medicare Prescription Drug Plan Costs (Extra Help)
application and allows users to apply online for help with prescription drug costs. The
Agency also anticipates releasing MySocialSecurity.gov in CY 2012.
MySocialSecurity.gov will provide personalized service to the public online. When fully
implemented, individuals will be able to access and update SSA-related information
online, such as employment records and pre-entitlement and post-entitlement
information. See Table 3 below for electronic service implementation since 2008.




18
     GPRA of 1993, Pub. L. No. 103-62, § 3, 107 Stat. 285, 286 (as codified at 5 U.S.C. § 306).
19
     GPRA of 1993, Pub. L. No. 103-62, § 2, 107 Stat. 285.
20
     GPRA of 1993, Pub. L. No. 103-62, § 3, 107 Stat. 285, 286 (as codified at 5 U.S.C. § 306).
Page 9 - The Commissioner


 Table 3: Electronic Services Implemented as of 2008 21
                     Year    Description
                     1996 Social Security Statement *
                          Proof of Income Letter (Benefit Verification)
                     1999
                          Replacement 1099
                          Medicare Replacement Card
                     2000
                          Retirement Application
                          Check Your Social Security Benefits
     As of 2008




                          Spouse Application
                     2001
                          Change of Address (Password)
                          Direct Deposit (Password)
                          Disability Application
                     2002
                          Public Fraud Reporting Form
                     2003 Child Disability Report 3820
                          Appeal Disability Report 3441
                     2004
                          Change of Address (Knowledge-Based)
                     2005 Help with Medicare Prescription Drug Plan Costs (Extra Help)

 Electronic Services Implemented Since 2008
                     Year    Description
                          Retirement Estimator
                     2008 Application Status
     Since 2008




                          iClaim (includes Retirement, Spouse, and Disability Applications)
                          Special Notice Option
                     2009
                          Revised Adult Disability Report 3368
                          Spanish Retirement Estimator
                     2010 iAppointment
                          Medicare Only Application

 Electronic Services 2011 and beyond
                             Description
                  2011 and




                             Spanish i1020
                   Beyond




                             Spanish iClaim
                             MySocialSecurity.gov
                             Online Social Security Statement

21
       See Appendix C for a description of the electronic services.
Page 10 - The Commissioner


Moreover, SSA is studying the feasibility of developing a “Click to Talk” application for
customer support. A customer would click on a link embedded in an existing electronic
service to connect to an SSA employee. The SSA employee would assist the customer
in real time, instead of the customer calling the 800-number or visiting a local FO.
However, the “Click to Talk” application would require a business process change and
therefore will take some time to develop.

As SSA works to improve its ability to establish a long-term roadmap for the Agency’s
business systems and operating environment, we recommend the Agency develop a
strategic plan for its electronic services that will contribute to SSA’s technology vision
and customer service delivery goals. A strategic electronic services plan should include
a development and implementation strategy that would assist SSA in managing its
future workloads better in its FOs, telephone services, and online applications. In
addition, we recommend SSA continue expanding its portfolio of electronic services to
provide additional ways for the public to do business with the Agency.

SOCIAL MEDIA

Use of Social Media to Market SSA's Electronic Services

SSA publicizes its electronic services through various media. 22 For example, SSA has
used minimal-cost marketing mechanisms, such as television public service
announcements and marketing campaigns featuring Patty Duke, Chubby Checker, and
George Takei, to interact with its customers and help increase the use of electronic
services. The celebrity spokespersons donate their time to promote online services. As
of February 2011, the Patty Duke File Online Campaign television public service
announcements had generated over $25 million in free airtime. The Chubby Checker
Extra Help Campaign television public service announcements produced over
$60 million in free airtime. Recently, SSA launched the “Boldly Go” campaign with
George Takei to encourage the public to go online to conduct business with the Agency.

In October 2007, SSA started using YouTube. In March 2010, SSA started using
Facebook and Twitter. YouTube, Facebook, and Twitter provide an inexpensive way to
market SSA’s electronic services, provide information, and direct the public to
www.socialsecurity.gov. When newsworthy events or public information campaigns
take place, or anytime there is a need or desire to communicate important information to
the public, the Agency uses social media tools, along with other communication vehicles
such as press releases, to deliver the information.




22
   SSA uses television and radio public service announcements, public affair specialists, print
advertisements, Webpage posting and promotions, display banners, social media, press releases,
billboards, and airport signs to publicize its electronic services.
Page 11 - The Commissioner


In the past, SSA has posted on Facebook, YouTube, and Twitter such items as the
announcement of the opening of a new SSA Telephone Service Center; the emergency
closing of SSA local offices in areas experiencing hazardous weather conditions; a new
Spanish online service; and SSA Webinars the public can watch online.

The cost of creating and posting SSA messages to social media sites is about
$41,000 annually. 23 Three SSA Webmasters24 also serve as SSA’s social media
administrators. SSA’s Facebook page in English now has about 10,000 followers.

In FY 2010, SSA spent about $2.1 million on search marketing, 25 billboards, and public
service announcements with free airtime. However, SSA had not been able to conduct
aggressive yearlong continuous advertising because of budget constraints. The Office
of Communications spent approximately $2.5 million to market its electronic services.
According to SSA, the “cause and effect” from its marketing efforts to encourage online
services was demonstrated by an increase in use after various marketing campaigns.
For example, after

     •   the 2007 Kathleen Casey-Kirshling promotion, the first baby boomer to file for
         retirement online, retirement applications filed online reached 19 percent of all
         retirement claims filed;
     •   Patty Duke’s promotion, retirement benefits filed online doubled to 157,000 in the
         first month and grew 50 percent in the following months, representing 32 percent
         of all retirement claims filed in 2009; and
     •   the 2011 Patty Duke and George Takei “Boldly Go” promotion, retirement
         applications filed online increased to 41 percent of all retirement claims filed.

In a sluggish economy, private firms are fine-tuning their Websites and using free social
media to take full marketing advantage of the business world. 26 Although social media
is an inexpensive way (approximately $41,000 annually in employee salaries) of
reaching thousands of people, SSA stated there is no way for the Agency to draw a
“cause and effect” relationship between visitation to its social media sites and the
number of online applications it receives. OQP conducted a survey 27 of 6,000 i1020


23
   The cost only includes employees’ salaries. Per SSA management, the Agency’s budget does not
include additional funding for social media use.
24
     Two Webmasters and one back-up.
25
  Paid Internet Search Marketing/Sponsored Ads vary about $1 million to $1.5 million per year at about
$1.60 per click.
26
   David Holt, Inexpensive social media marketing in a slow economy, Accounting Web,
http://www.accountingweb.com/topic/social-networking/inexpensive-social-media-marketing-slow-
economy.
27
     OQP, FY 2010 Internet Report Card Survey Report, January 2011.
Page 12 - The Commissioner


and Title II retirement and disability applicants. In the survey, the Agency asked
questions like the following.

Question 1: How did you hear about Social Security’s online application?

The customer could have responded: (a) Social Security, (b) Family member or
   friend, (c) Other Website, (d) Doctor, social worker, or other health care professional,
   (e) Nonprofit organization, (f) Attorney or paid professional consulting service,
   (g) Media (newspaper, magazine, TV or radio), or (h) Other.

However, the OQP survey does not offer a response option for social media when
asked how the claimant heard about the online application or if social media
influenced the customer to use the Agency’s electronic services. In addition, SSA’s
ACSI survey does not ask customers how they heard about the Agency’s electronic
services or if social media influenced them to use the Agency’s electronic services.

According to the Paperwork Reduction Act of 1995, 28 Federal agencies should
“. . . ensure the greatest possible public benefit from and maximize the utility of
information created, collected, maintained, used, shared and disseminated by, or for,
the Government.”

We recommend that SSA revise a question on its OQP survey and add a question to its
ACSI surveys that asks customer to identify how they learned about the Agency’s
electronic services; and include social media as one of the options. For example, a
question the Agency could ask is as follows.

How did you learn about our electronic services?

      a)   Television
      b)   Radio
      c)   Newspaper
      d)   Friend
      e)   Social Media
      f)   Other _________.

Other Federal Agencies’ Use of Social Media

SSA should continue exploring more innovative ways of providing additional avenues to
communicate and interact with its customers. We contacted several Federal agencies
to obtain a better understanding of how these agencies are using social media to
interact with their customers. We contacted the Departments of Education, Housing
and Urban Development, and Veterans Affairs. All three agencies implemented social
media resource links in 2009 and have had a favorable experience. The three agencies
are using social media sites to improve their communication with the public.

28
     Paperwork Reduction Act of 1995, Pub. L. No. 104-13, § 3501 (2), 44 U.S.C. § 3501 (2).
Page 13 - The Commissioner


Based on additional Internet research, we found other Federal agencies are using social
media to interact with their customers. The Federal Emergency Management Agency
used social media tools to get information to the public during a major winter storm. A
former Federal Emergency Management Agency Deputy Chief of Staff stated the
agency should have captured and relayed practical information people needed in a
crisis, such as which shelters accepted dogs or which gas stations had fuel -- common
questions during evacuations. 29

The National Aeronautics and Space Administration used social media to engage
15 to 150 randomly selected Twitter users to spread the word about its mission, which
resulted in communications disseminated to millions and the public’s successful
engagement.

According to a Nextgov article, the Department of State used social media “to
understand and influence the public uprising in Egypt. 30 The Department of State used
Facebook and Twitter to get critical information to American citizens. A subject matter
expert stated, “If you're trying to engage and connect with and get information to and
from a particular audience . . . increasingly this is the way to do it."

Other Federal agencies have used mobile applications and social media to reach its
customers. For example, the Internal Revenue Service has had success with its mobile
application, the IRS2Go mobile telephone tax refund tracking application. 31 Since social
media is an inexpensive way to reach thousands of people, we recommend SSA
continue to explore, develop, and implement more innovative ways to interact and
communicate with its customers. This could assist the Agency to meet the
Commissioner’s goal of receiving 50 percent of retirement applications online as
of 2012.

CONCLUSION AND RECOMMENDATIONS
SSA, like all agencies, must manage its resources for optimal impact. As such,
opportunities exist to provide additional electronic services needed and demanded by its
customers. To that end, we support the Agency in its efforts to take advantage of
technology to make work processes more efficient and provide the responsive service
the public expects. We support efforts to develop better ways to communicate
effectively and provide needed services to the Agency’s customers. Consequently,
SSA needs to define what services its customers demand, and work toward


29
  Brian Kalish, Social media trends to be a one-way communication for FEMA, Nextgov, February 3,
2011.
30
  Brian Kalish, State Department's Use of Social Media in Egypt Gets Mixed Reviews, Nextgov,
January 31, 2011.
31
   After our fieldwork, SSA released its first mobile application Baby Names Mobile Application. The
application allows individuals to search the most popular baby names from the last 120 years using
official Social Security data.
Page 14 - The Commissioner


implementing these services to remain a provider of world-class customer service to the
public.

We recommend SSA:

1. Develop a strategic plan for its electronic services that will contribute to SSA’s
   technology vision and customer service delivery goals.
2. Develop a performance metric to measure customer satisfaction for key electronic
   service applications.
3. Continue to evaluate its composition of customer satisfaction ratings included in its
   Overall Average Customer Satisfaction goal and include all electronic services, if
   applicable, in the measurement.
4. Continue to review customer service feedback to determine the necessary service
   improvements and implement appropriate solutions.
5. Continue expanding its portfolio of electronic services to provide additional ways for
   the public to do business with the Agency.
6. Revise a question on its OQP survey and add a question in the ACSI surveys that
   asks customers to identify how they learned about the Agency’s electronic services
   and include social media as one of the options.
7. Continue to explore, develop, and implement more innovative ways to interact and
   communicate with its customers.

AGENCY COMMENTS
SSA agreed with Recommendations 3 through 7. However, the Agency disagreed with
Recommendations 1 and 2. See Appendix D for the full text of the Agency’s comments.

OIG RESPONSE
For Recommendation 1, SSA does not believe it is wise to commit to specific
expansions or refinements of Agency electronic services in future years given the
constantly evolving needs of the Agency and its customers. We find it unusual that SSA
responded in this manner since the Social Security Advisory Board (SSAB)32
recommended SSA develop a service delivery strategy that allows the public the option
of interacting with the Agency in the way that best meets individuals’ needs, in person,
electronically, through the mail, or by telephone. In addition, the Future Systems




32
  SSAB, The Social Security Administration: A Vision of the Future, March 2011, p. 6. SSAB is a seven-
member bipartisan advisory board created in 1994 when SSA became an independent agency. It was
created to advise the President, Congress, and the Commissioner of Social Security on Social Security
and Supplemental Security Income Programs.
Page 15 - The Commissioner


Technology Advisory Panel (FSTAP) 33 recommended SSA move to an electronic
customer self-service model with the goal of moving transactions to the Internet each
year until 90 percent of its business takes place online.

Overall, we have stated in prior reviews the Agency lacks strategic planning for
customer service 34 and information technology (IT) processing needs.35 SSA does not
have a long-term customer service delivery plan. We believe, as a part of its customer
service delivery plan, the Agency should include a discussion of its future plans to
develop and implement electronic services. As SSA implements solutions to address its
customer service and IT processing requirements, it needs to have a more strategic and
integrated approach to its planning efforts.

For Recommendation 2, SSA stated it does not believe a performance metric for its
online services is appropriate. The Agency further stated it does not have parallel
metrics for transactional services handled through other service delivery channels,
which account for a much larger proportion of SSA’s workload. We reiterate the need
for an electronic service performance metric. The SSAB also recommended SSA have
measurements that include assessment of the Agency’s ability to support each service
option as well as the quality of the service rendered. In the future, we believe the
majority of customers will use the Internet instead of calling or visiting field offices to do
business with SSA. Therefore, the Agency needs to develop specific electronic service
metrics to determine which services are meeting its customers’ needs.




                                               Patrick P. O’Carroll, Jr.




33
   FSTAP, Re-imagining Social Security, June 2010, p. 2. The Commissioner of Social Security
established FSTAP in February 2008 to provide independent advice and recommendations on the future
of systems technology and electronic services at SSA 5 to 10 years into the future.
34
     SSA OIG, SSA’s Customer Service Delivery (A-07-11-01125), July 2011.
35
     SSA OIG, SSA’s IT Strategic Planning (A-44-09-29120), June 2009.
                                       Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Social Security Administration’s Glossary of Electronic Services
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms
ACSI    American Customer Satisfaction Index
CY      Calendar Year
FO      Field Office
FSTAP   Future Systems Technology Advisory Panel
FY      Fiscal Year
GPRA    Government Performance and Results Act of 1993
IT      Information Technology
OQP     Office of Quality Performance
PAR     Performance and Accountability Report
SITAR   Strategic Information Technology Assessment and Review
SSA     Social Security Administration
SSAB    Social Security Advisory Board
                                                                                    Appendix B

Scope and Methodology
To accomplish our objective, we:

• Interviewed SSA staff responsible for the Agency’s electronic services available to the
  public.
• Interviewed personnel from SSA’s Offices of Operations, Systems, Communications,
  and Quality Performance.
• Obtained and reviewed American Customer Satisfaction Index surveys.
• Requested and received a list of current and future electronic services.
• Requested and received an explanation of the Office of Electronic Services Web
  Analytics.

We also examined:

• SSA’s Fiscal Year 2010 Performance and Accountability Report.
• Office of Management and Budget Circular A-130. 1
• Government Performance and Results Act of 1993. 2
• Paperwork Reduction Act of 1995. 3

We performed our evaluation in October 2010 through June 2011 in Baltimore,
Maryland. The entities reviewed were the Offices of Operations, Systems, Quality
Performance, and Communications. We conducted our review in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspection and Evaluation. 4




1
  Office of Management and Budget Circular A-130,Transmittal Memorandum #4, Management of Federal
Information Resources (November 28, 2000).
2
    Government Performance and Results Act of 1993, Pub. L. No. 103-62, § 2, 107 Stat. 285-286.
3
    Paperwork Reduction Act of 1995, Pub. L. No. 104-13, § 3501, et seq., 44 U.S.C. § 3501 et seq.
4
 As of January 2011, the President’s Council on Integrity and Efficiency was superseded by the Council
of the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.
                                                                           Appendix C

Social Security Administration’s Glossary of
Electronic Services
     Electronic Service
     Applications and
                                                        Description
      Implementation
            Date
 1                            Spanish version of the Help with Medicare Prescription Drug
     Spanish i1020
                              Plan Costs (Extra Help) application allows users to apply
     Pending
                              online for help with prescription drug costs.
 2                            Allows applicants to apply for Retirement, Disability, Spouse,
     Spanish iClaim
                              and recently, Medicare Only benefits in a Spanish language
     Pending
                              format online.
 3
     MySocialSecurity.com
                          Will provide personalized service to the public online.
     Pending

 4   Online Social Security
                              Allows access to Social Security statements online instead of
     Statements
                              waiting for a once-yearly letter or contacting a field office.
     Pending
 5   Spanish Retirement
                              Internet users can enter retirement data to get benefit
     Estimator
                              estimates in Spanish.
     December 2010
 6
     iAppointment             The public can schedule an appointment with a servicing field
     November 2010            office online.
 7
                              The new Medicare application is an addition to the Social
     Medicare Only
                              Security Administration’s (SSA) suite of online services. Third
     Application
                              parties may also complete an electronic application on behalf
     February 2010
                              of someone else. This application is included in iClaim.
 8   Revised Adult            The i3368 is a citizen-to-government Web application that
     Disability Report 3368   collects information (medical data and work history) on
     December 2009            disability reports in conjunction with disability claims.
 9                            SSA developed a special notice option to respond to a court
                              order to present additional options to Title II and XVI recipients,
                              representative payees, and claim applicants who are blind or
     Special Notice Option
                              visually impaired. This process captures individuals'
     November 2009
                              preferences for receiving notices and other communications
                              from SSA.



                                            C-1
     Electronic Service
     Applications and
                                                        Description
      Implementation
            Date
10
     Application Status       This application gives claimants the ability to check the status
     December 2008            of their Social Security claims online.

11
     Retirement Estimator     Internet users are able to enter retirement data to get benefit
     July 2008                estimates online.

12   Help with Medicare
     Prescription Drug        i1020 (Applicant & third Party) allows users to apply online for
     Plan Costs (Extra        help with prescription drug costs.
     Help) June 2005
13
     Change of Address
                              Beneficiaries can update their Title II benefits address online
     (Knowledge-Based)
                              using a knowledge-based authentication process.
     February 2004
14   Appeal Disability
     Report 3441              Allows Internet users to complete the Disability Report-Appeal
     February 2004            (SSA-3441) online.

15                            The public can complete the Disability Report-Child (SSA-
     Child Disability         3820) online. An automatically assigned re-entry number
     Report 3820              allows users the ability to complete the i3820 over multiple
     November 2003            sessions.

16   Disability Application   Claimants can apply for disability benefits online. This
     January 2002             application is included in iClaim.
17   Public Fraud
                              The public can report allegations of fraud, waste, and abuse
     Reporting Form
                              concerning SSA programs and operations.
     December 2002
18   Direct Deposit           Using a personal identification number and password,
     (Password)               beneficiaries can start or change direct deposit for Title II
     August 2001              benefits online.
19   Change of Address        Beneficiaries can update their Title II benefits address and
     (Password)               telephone number online using a personal identification
     April 2001               number and password.
20
     Spouse Application       A spouse who has not worked or who has low earnings can
     March 2001               apply for benefits online. This application is included in iClaim.




                                            C-2
21   Check Your Social   Beneficiaries can obtain information that SSA has on record
     Security Benefits   online using a personal identification number and password.
     February 2001       For example, direct deposit, Medicare, benefit payments, or
                         overpayment information.
22                       An applicant can apply for retirement benefits online.
     Retirement
                         However, the individual may need to take or mail original
     Application
                         documents to the issuing office. This application is included in
     November 2000
                         iClaim.
23
     Medicare            Medicare beneficiaries can request a replacement Medicare
     Replacement Card    card online.
     July 2000
24
                         A beneficiary can request a replacement SSA-1099/1042S
     Replacement 1099
                         Social Security Benefit Statement online.
     March 1999

25   Proof of Income
     Letter (Benefit     Beneficiaries can request a proof of income statement mailed
     Verification)       to them.
     March 1999
26
     Social Security
                         SSA customers can request a Social Security Statement
     Statement
                         online.
     March 1996




                                       C-3
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 28, 2011                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “The Social Security Administration’s Electronic
           Services” (A-14-11-11112)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord, at (410) 966-5787.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S ELECTRONIC SERVICES”
(A-14-11-11112)

Recommendation 1

Develop a strategic plan for its electronic services that will contribute to SSA’s technology
vision and customer service delivery goals.

Response

We disagree. Our commitment to electronic services is clear, as evidenced in the Agency
Strategic Plan. However, we do not believe it is wise to commit to specific expansions or
refinements of agency electronic services in future years given the constantly evolving needs of
the agency and our customers. We continuously evaluate the satisfaction of our customers and
our available resources, and adjust our electronic service plans accordingly.

Recommendation 2

Develop a performance metric to measure customer satisfaction for key electronic service
applications.

Response

We disagree. We believe it is important to monitor customer satisfaction of our online services.
However, since we do not have parallel metrics for transactional services handled through our
other service delivery channels, which account for a much larger proportion of the workload, we
feel it would be inappropriate to establish a performance indicator for our online services.

Our Office of Electronic Services regularly uses the American Customer Satisfaction Survey
(ACSI) to measure and track customer satisfaction scores, and they analyze user responses to
ACSI survey questions to obtain feedback on our electronic services. We report findings as an
aggregate of all service delivery channels. In addition, our Office of Quality Performance
conducts surveys and analyzes customer satisfaction of our electronic services. While we
believe the surveys provide excellent feedback from users, we are re-evaluating our performance
measures and developing new outcome focused measures to support our strategic plan.

Recommendation 3

Continue to evaluate its composition of customer satisfaction ratings included in its Overall
Average Customer Satisfaction goal, and include all electronic services, if applicable, in the
measurement.




                                                D-2
Response

We agree. We expanded the types of transactions included in our Internet Report Card Survey
beyond the original iApplications in our fiscal year 2010 survey. We will evaluate the feasibility
of incorporating additional surveys as we add new services to our website.

Recommendation 4

Continue to review customer service feedback to determine the necessary service improvements
and implement appropriate solutions.

Response

We agree. We review feedback from the ASCI surveys and conduct Satisfaction Insight
Reviews on a routine basis.

Recommendation 5

Continue expanding its portfolio of electronic services to provide additional ways for the public
to do business with the Agency.

Response

We agree. However, implementation of future electronic services depends upon available
resources.

Recommendation 6

Revise a question on its OQP survey and add a question in the ACSI surveys that asks customers
to identify how they learned about the agency’s electronic services, and include social media as
one of the options.

Response

We agree.

Recommendation 7

Continue to explore, develop, and implement more innovative ways to interact and communicate
with its customers.

Response

We agree.




                                               D-3
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Brian Karpe, Director, Information Technology Audit Division

   Mary Ellen Moyer, Audit Manager

Acknowledgments

In addition to those named above:

   Cheryl Dailey, Auditor-in-Charge

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff Assistant at
(410) 965-4518. Refer to Common Identification Number A-14-11-11112.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
